CERTIFICATE OF SERVICE
NO. TBD
Barry Rosen
Petitioner(s)
v.
United States et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the BARRY
ROSEN PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Noel J. Francisco
Solicitor General of the United States
Room 5614, Dept of Justice
950 Pennsylvania Ave.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
Counsel for United States and
Federal Aviation Administration

Ivan Owen Campbell
Santa Monica City Attorney's Office
1685 Main Street, Room 310
Santa Monica, CA 90401
(310) 458-8336
Counsel for City of Santa Monica

Lucas DeDeus

August 14, 2020
SCP Tracking: Lamanna-11599 Gateway Blvd.-Cover White

